U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Stephen A. Begani v. United States of America
S.Ct. No. 21-335

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 30,
2021, and placed on the docket on September 2, 2021. The government’s response is due on
October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0335
BEGANI, STEPHEN A.
USA

JASPER CASEY
NAVY-MARINE CORPS APPELLATE REVIEW
ACTIVITY
1254 CHARLES MORRIS STREET, S.E.
BUILDING 58
SUITE 100
WASHINGTON, DC 20374
DANIEL E. ROSINSKI
DEFENSE SERVICE OFFICE SOUTHEAST
9620 MARYLAND AVENUE
SUITE 100
NORFOLK, VA 23511
STEPHEN I. VLADECK
727 EAST DEAN KEETON ST.
AUSTIN, TX 78705
512-475-9198
SVLADECK@LAW.UTEXAS.EDU

